No. 20-1611
IN THE

~upreme QCourt of tbe Wlniteb ~tates
HEALTHCARE DISTRIBUTION ALLIANCE, ASSOCIATION
FOR ACCESSIBLE MEDICINES, and SPECGX LLC,

Petitioners,
v.
LETITIA JAMES and HOWARD A. ZUCKER, in their
respective official capacities as Attorney General and
Commissioner of Health of the State of New York,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that three copies of
the Brief for Amicus Curiae Chamber of Commerce of the United States of America
in Support of Petitioners in Healthcare Distribution Alliance v. James, No. 20-1611,
were served via overnight mail on all parties required:
Michael B. Kimberly

MCDERMOTT WILL & EMERY LLP

500 North Capitol Street NW
The McDermott Building
Washington, DC 20001
(202) 756-8901
mkimberly@mwe.com

Counsel for Petitioners

Steven Chiajon Wu
NEW YORK OFFICE OF THE
ATTORNEY GENERAL

28 Liberty Street
New York, NY 10005
(212) 416-6312
steven. wu@ag .ny. gov

Counsel for Respondents

I declare under penalty of perjury that the foregoing is true and correct.

Date: June 18, 2021

